No. 20IN THE

Supreme Court of the United States
ONO PHARMACEUTICAL CO., LTD., TASUKU HONJO,
E.R. SQUIBB & SONS, L.L.C., AND
BRISTOL-MYERS SQUIBB COMPANY,
Petitioners,
v.
DANA-FARBER CANCER INSTITUTE, INC.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE
I, Thomas G. Saunders, a member of the bar of this Court, hereby certify that, on
this 8th day of March, 2021, all parties required to be served have been served copies of
the Petition for a Writ of Certiorari in this matter by overnight courier to the address
below.
DONALD R. WARE
SARAH S. BURG
BARBARA A. FIACCO
FOLEY HOAG LLP
155 Seaport Blvd.
Seaport World Trade Center West
Boston, MA 02210
(617) 832-1000
dware@foleyhoag.com
sburg@foleyhoag.com
bfiacco@foleyhoag.com
THOMAS G. SAUNDERS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
thomas.saunders@wilmerhale.com

